OIG Audit Report GR-60-08-001

Office of Justice Programs Southwest Border Prosecution Initiative Funding 
Received by the City and County of San Francisco, San Francisco, California

Audit Report GR-60-08-001


November 2007
Office of the Inspector General


Executive Summary


The U.S. Department of Justice, Office of the Inspector General, Audit Division, has completed an audit of the Southwest Border Prosecution Initiative (SWBPI) funding awarded by the Office of Justice Programs (OJP) to the City and County of San Francisco (San Francisco), California. As of March 26, 2007, San Francisco had received SWBPI funding totaling $5,414,895. 
 Many drug and other criminal cases occurring along the southwest border are initiated by a federal law enforcement agency or multi-jurisdictional task forces, e.g., High Intensity Drug Trafficking Areas (HIDTA) and Organized Crime Drug Enforcement Task Forces (OCDETF). Many U.S. Attorneys, including the U.S. Attorney for the Northern District of California, have developed prosecution guidelines which govern the most common violations of federal law. These prosecution guidelines are used by law enforcement agencies to determine whether to file a case in federal, state, or county court. As a result, many federally initiated cases occurring near the southwest border are referred to the state or county for prosecution. 
 The SWBPI was established in Fiscal Year (FY) 2002, when Congress began appropriating funds to reimburse State, county, parish, tribal, and municipal governments for costs associated with the prosecution of criminal cases declined-referred by local U.S. Attorneys’ offices. Reimbursements received from SWBPI funding may be used by applicant jurisdictions for any purpose not otherwise prohibited by federal law. For FY 2007, Congress appropriated $30 million for the SWBPI.
The objective of our audit was to determine if the SWBPI reimbursements received by San Francisco were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the SWBPI.
 We found that San Francisco was unable to provide a listing of cases submitted for reimbursements because the SWBPI submissions were not based on specific cases. Further, the cases included on the final master list created by San Francisco, although not representative of the actual SWBPI submissions, were ineligible under the SWBPI guidelines. Specifically, based on the final master list, San Francisco received unallowable reimbursements totaling $5,414,895 for the 2,241 cases submitted because they were not federally initiated.
 These issues are discussed in detail in the Findings and Recommendations section of the report. Our audit Objectives, Scope, and Methodology appear in Appendix I. 







Return to OIG Home Page